                                                                       Uni ted States Departmen t of State
                                                                       and the Broadcasti ng Board of Gove rnors

                                                                       OffICe of 11l.';p ector Genera l



                                                                              NOV 151010


The Honorable Walter Isaacson
Chair
Broadcasting Board of Governors
330 Independence Avenue SW, Room 3360
Washington, DC 20237

Dear Mr. Isaacson:

An independent certified public accounting finn , Clarke Leiper PLLC, was engaged to
audit the financial statements of the Broadcasting Board of Govemors (B BG) as of
September 30, 20 I 0 and 2009, and for the years then ended, to provide a report on
internal control over financial reporting (i_n eluding safeguarding assets) and compliance
with laws and regulations, and to report any reportable noncompliance with laws and
regulations it tested. The contract required that the audit be performed in accordance
with U.S. generally accepted government auditing standards; Office of Management and
Budget audit guidance; and the Financial Audit Manual, issued by the Government
Accountability Office and the President's Council on Integrity and Efficiency.

In its audit of BSG, Clarke Leiper PLLC, found

           • 	 the financial statements were presented fairly, in all material respects, in
               confonnity with accounting principles generally accepted in the United States
               of America;

                                                          l
           • 	 there were no material weaknesses in internal control; and

           • 	 there were no reportable noncompliance with laws and regulations tested.

Clarke Leiper PLLC is responsible for the enclosed auditor' s report, Independent
Auditor 's Report on the Broadcasting Board o/Governors 2010 and 2009 Financial
Statements (AUDIIS - II -OS), dated November 15,2010, and the conclusions expressed in
the report. The Office of Inspector General (OIG) does not express an opinion on BSG 's
financial statements or conclusions on internal control or compliance with laws and
regulations.



I   A material weakness is a deficiency or combination of deficiencies in internal control such that there is a
reasonable possibility that a material misstatement of the entity's financial statements will not be prcvcnlcd
or detccted and corrected on a timely basis.
     BBG' s comments on the auditor's repon are included as Appendix A to the enclosed
\	
     repon.

     DIG appreciates the cooperation extended to it and Clarke Leiper PLLC by BBG
     managers and stan' during this audit.

     Sincerely,

     /f.[)c~CJ
     Harold W. Geisel 

     Deputy Inspector General 


     Enclosure: 	 As slated.




                                               2

   Independent Auditor’s Report



Broadcasting Board of Governors 

     Financial Statements

   September 30, 2010 and 2009 



    AUD/IB-11-05, November 2010




         Clarke Leiper, PLLC 

      Certified Public Accountants 

         6265 Franconia Road 

      Alexandria, Virginia 22310 

             (703) 922-7622

                                          CLARKE LEIPER PLLC
                                       CERTIFIED PUBLIC ACCOUNTANTS
                                             6265 FRANCONIA ROAD
                                           ALEXANDRIA, VA 22310-2510
                                                  703-922-7622
                                               FAX: 703-922-8256
DORA M. CLARKE
LESLIE A. LEIPER




                                INDEPENDENT AUDITOR’S REPORT


       To the Chair 

       Broadcasting Board of Governors 


       We have audited the accompanying Broadcasting Board of Governors (BBG)
       Consolidated Balance Sheets, Consolidated Statements of Net Cost, Consolidated
       Statements of Changes in Net Position, and Combined Statements of Budgetary
       Resources (annual financial statements) as of, and for the years ended, September 30,
       2010 and 2009. We have considered internal control over financial reporting and
       compliance in place as of September 30, 2010, and for the year then ended, and we tested
       compliance with selected laws and regulations.

       In our audits of BBG’s 2010 and 2009 financial statements, we found

           •	 the financial statements are presented fairly, in all material respects, in conformity
              with accounting principles generally accepted in the United States of America;

           •	 no material weaknesses in internal control over financial reporting and
              compliance with laws and regulations; and

           •	 no instances of reportable noncompliance with laws and regulations we tested.

       Each of these conclusions is discussed in more detail on the following pages. This report
       also discusses our audit objectives, scope, and methodology.

                     OPINION ON THE ANNUAL FINANCIAL STATEMENTS

       In our opinion, BBG’s annual financial statements, including the notes thereto, present
       fairly, in all material respects, BBG’s financial position as of September 30, 2010 and
       2009, and its net cost of operations, changes in net position, and changes in budgetary
       resources for the years then ended, in conformity with accounting principles generally
       accepted in the United States of America.
                                 INTERNAL CONTROL 


In planning and performing our audits of BBG’s annual financial statements as of, and
for the years ended, September 30, 2010 and 2009, in accordance with auditing standards
generally accepted in the United States of America, we considered BBG’s internal
control over financial reporting and compliance as a basis for designing our auditing
procedures for the purpose of expressing our opinion on the annual financial statements,
but not for the purpose of expressing an opinion on the effectiveness of BBG’s internal
control over financial reporting and compliance. Accordingly, we do not express an
opinion on the effectiveness of BBG’s internal control or on management’s assertion on
internal control included in the Management’s Discussion and Analysis section.

We limited our consideration of internal control to those controls necessary to achieve the
objectives described in Office of Management and Budget (OMB) Bulletin 07-04, Audit
Requirements for Federal Financial Statements, as amended. We did not consider all
internal controls relevant to operating objectives as broadly defined by the Federal
Managers’ Financial Integrity Act of 1982, such as those controls relevant to ensuring
efficient operations.

The purpose of internal control is to provide management with reasonable, but not
absolute, assurance that the following objectives are met:

       •	 Financial reporting: Transactions are properly recorded, processed, and
          summarized to permit the preparation of financial statements in conformity
          with accounting principles generally accepted in the United States of America,
          and assets are safeguarded against loss from unauthorized acquisition, use, or
          disposition.

       •	 Compliance with laws and regulations: Transactions are executed in
          accordance with laws governing the use of budget authority, government-wide
          policies, laws identified by OMB in Appendix E of Bulletin 07-04, and other
          laws and regulations that could have a direct and material effect on the annual
          financial statements.

A deficiency in internal control exists when the design or operation of a control does not
allow management or employees, in the normal course of performing their assigned
functions, to prevent or detect and correct misstatements on a timely basis. A material
weakness is a deficiency or combination of deficiencies in internal control such that there
is a reasonable possibility that a material misstatement of the entity’s financial statements
will not be prevented or detected and corrected on a timely basis.

Our consideration of the internal control over financial reporting and compliance was not
designed to identify all deficiencies in internal control that might be deficiencies,
significant deficiencies, or material weaknesses. Therefore, there can be no assurance
that all deficiencies, significant deficiencies, or material weaknesses have been identified.




                                              2

We did not identify any deficiencies in internal control that we consider to be material
weaknesses, as defined above.

However, we consider the following four deficiencies in BBG’s internal control to be
significant deficiencies. A significant deficiency is a deficiency, or a combination of
deficiencies, in internal control that is less severe than a material weakness yet important
enough to merit attention by those charged with governance.

       •	 BBG’s internal control over its financial and accounting system as of
          September 30, 2010, was inadequate. There is a risk of materially misstating
          financial information under the current conditions. The principal area of
          inadequacy was that certain elements of the financial statements, mainly
          property, plant, and equipment, are developed from sources other than the
          general ledger. The use of sources other than the general ledger to generate
          elements of the financial statements increases the potential for omission of
          significant transactions.

This condition was cited in our audit of BBG’s balance sheet as of September 30, 2004,
and in subsequent audits.

       •	 BBG did not maintain adequate internal control over accounts payable. Initial
          audit testing indicated that there is a significant issue with overseas accounts
          payable entries not being recorded in proper accounts. Additionally, domestic
          accounts payable was misstated due to a duplicate posting. Although BBG
          undertook an initiative to identify and resolve misstatements in accounts
          payable, the reconciliation was not completed by September 30, 2010.

This condition was cited in our audit of BBG’s annual financial statements as of
September 30, 2006, and in subsequent audits.

       •	 BBG’s internal control over property was inadequate. Deficiencies included
          the following:

           •	 Acquisitions and disposals were not recorded in the year of occurrence.
           •	 Updating of acquisitions and disposals was performed quarterly rather
              than when they occur.
           •	 Acquisitions and disposals data supplied for updating capitalized property
              was unreliable.
           •	 Costs of shipping property to posts were not treated consistently.
           •	 Recorded inventory was not reconciled with physical inventory.

This condition was cited in our audit of BBG’s annual financial statements as of
September 30, 2009.

       •	 BBG’s controls over unliquidated obligations are inadequate. As of
          September 30, 2010, the balance of unliquidated obligations was $122


                                             3

           million. Tests indicated that approximately $6.9 million of this balance was
           overstated because the related obligations could not be supported or were no
           longer needed.

We are required to review BBG’s current FMFIA report and disclose differences with the
material weaknesses cited in our report. We did not identify any discrepancies.

We noted certain other internal control issues that we will report to BBG management in
a separate letter.

                  COMPLIANCE WITH LAWS AND REGULATIONS

BBG management is responsible for complying with laws and regulations applicable to
BBG. As part of obtaining reasonable assurance about whether the annual financial
statements are free of material misstatement, we performed tests of BBG’s compliance
with certain provisions of laws and regulations, noncompliance with which could have a
direct and material effect on the determination of financial statement amounts, and
certain other laws and regulations specified in OMB Bulletin 07-04, as amended, that we
deemed applicable to BBG’s annual financial statements. We limited our tests of
compliance to these provisions, and we did not test compliance with all laws and
regulations applicable to BBG. Noncompliance may occur and not be detected by these
tests. This testing may not be sufficient for other purposes. The objective of our audit of
the annual financial statements, including our tests of compliance with provisions of
selected laws and regulations, was not to provide an opinion on overall compliance with
such provisions. Accordingly, we do not express such an opinion.

Reportable instances of noncompliance are failures to follow requirements or violations
of prohibitions in statutes and regulations that cause us to conclude that the aggregation
of the misstatements resulting from those failures or violations is material to the financial
statements or that sensitivity warrants disclosure thereof. The results of our tests of
compliance with selected provisions of laws and regulations disclosed no reportable
instances of noncompliance.

                     CONSISTENCY OF OTHER INFORMATION

BBG’s Management’s Discussion and Analysis, required supplementary information, and
other accompanying information contain a wide range of information, some of which is
not directly related to the financial statements. We did not audit and accordingly do not
express an opinion on this information. We have applied certain limited procedures,
which consisted principally of comparing the information for consistency with the
financial statements and making inquiries of management regarding the methods of
measurement and presentation of the supplementary information. On the basis of this
limited work, we found no material inconsistencies with the financial statements,
accounting principles generally accepted in the United States of America, or OMB
guidance.




                                              4

                      RESPONSIBILITIES AND METHODOLOGY 


BBG management has the responsibility for

        •	 preparing the annual financial statements, required supplementary
           information, and other accompanying information in conformity with
           accounting principles generally accepted in the United States of America;

        •	 establishing, maintaining, and assessing internal control to provide reasonable
           assurance that the broad control objectives of the Federal Managers’ Financial
           Integrity Act are met; and

        •	 complying with applicable laws and regulations.

We are responsible for expressing an opinion on the annual financial statements based on
our audits. We are responsible for planning and performing an audit to obtain reasonable
assurance about whether BBG’s financial statements are presented fairly, in all material
respects, in conformity with accounting principles generally accepted in the United States
of America. We are also responsible for determining whether BBG management
maintained effective internal control. In addition, we are responsible for testing
compliance with selected provisions of applicable laws and regulations that may
materially affect the financial statements and performing limited procedures with respect
to certain other information appearing in the annual financial statements.

In order to fulfill these responsibilities, we

        •	 examined, on a test basis, evidence supporting the amounts in the annual
           financial statements and related disclosures;

        •	 assessed the accounting principles used and significant estimates made by
           management;

        •	 evaluated the overall presentation of the annual financial statements;

        •	 obtained an understanding of the entity and its operations, including its
           internal controls related to financial reporting and compliance with laws and
           regulations;

        •	 tested relevant internal controls over financial reporting and compliance and
           evaluated the design and operating effectiveness of internal control;

        •	 considered the design of the process for evaluating and reporting on internal
           control and financial management systems under the Federal Managers’
           Financial Integrity Act;




                                                 5

       •	 tested compliance with provisions of selected laws and regulations that may
          have a direct and material effect on the annual financial statements;

       •	 obtained written representations from management; and

       •	 performed other procedures as we considered necessary under the
          circumstances.

We performed our audits in accordance with auditing standards generally accepted in the
United States of America, the standards applicable to financial audits contained in the
Government Auditing Standards, and the provisions of OMB Bulletin 07-04. We believe
that our audits provided a reasonable basis for our opinions.

This report is intended solely for the information and use of BBG management, the
Office of Inspector General, OMB, the Government Accountability Office, the
Department of the Treasury, and Congress and is not intended to be and should not be
used by anyone other than those specified parties. This restriction is not intended to limit
the distribution of this report, which is a matter of public record.

Comments by BBG management on this report are presented as an appendix. The written
response by BBG management has not been subjected to the auditing procedures applied
in the audit of the financial statements, and accordingly, we do not express an opinion on
these comments.




                                              Clarke Leiper, PLLC


Alexandria, Virginia
November 15, 2010




                                             6

                                                                                                                                         APPENDIX

                    BROADCASTING BOARD OF GOVERNORS
                    UNITED SfATES OF AMERIC
                                     AMERICA




       November 15,20 I0


       The Ho norable Har Harold
                              o ld W.
                                   W . Geisel
       Acting Ii nspector
                 nspec
                  spector
                  specto
                       torr General
       Office of In spector
                  Inspec
                    spec  tor General
       2201 C Street, N.W.
       Washington,
       Wa sh ington, DC 20520

       Dcar Mr. Geisel:
       Dear

                                          COmment on the draft report of BBG
       Thank yo u for the opportunity to comment                            BBG's 's fiscal year 20 10 I0 financial
       statements. The financial statements received an unqualified opinion. Similarly. the report on internal
       controls and compliance with llaws
                                        aws
                                        aw s and regulations noted
                                                              nooted
                                                                 ted no m material
                                                                           aterial
                                                                           ate       deff iciencie
                                                                                     de
                                                                                     deficiencie
                                                                                          icienciess or reportable
                                                                               rial deficiencies
       conditions.

       We greatly appreciatc
                    appreciate the profes
                                      professional
                                             sional and cooperative manner in which your     you r sstaff
                                                                                                     taff
                                                                                                     ta ff aand
                                                                                                             nd the aaudit
                                                                                                                        udi t firm.
                                                                                                                        udit  firm,
       Clarke   Leiper,, PLLC
       C larke Leiper    PLLC,, conducted thisthi s audit. Throughout FY 20 10,   I 0, the SBG
                                                                                            BBG ha hass Illade
                                                                                                         made str strides
                                                                                                                     ides toward
       improv
       improving
               ing internal
        mproving   interna   fi nancial proce
                    nternalI financial         sses.. Some of the
                                         processes.
                                               sses.
                                         processes                 se improvement
                                                                these  improvemcnt s aare re reflected
                                                                                             reflccted in youryou I' report. The
       report identified three matters
                                 matter s invol ving internal controls
                                          involving           control s that the auditor
                                                                                 auditorss considered
                                                                                           cons idered s ignificant.
                                                                                                           iggnificant.
                                                                                                              nificant.

       Two issue
             issuess relate     property , plant, and equipment - the source
                     re late to property,                                              infor mation used
                                                                              so urce information            to develop element
                                                                                                        used to             elementss of
           financial sta
       the tinancial       tementss and internal controls over property. During FY 20 I 0,
                        tatement                                                                      0, the BBG initiated a pr~iect
                                                                                                                                  project
       to consolidate the official property
                                        propert y records
                                                     record s into one system,
                                                                             systelll, Property
                                                                                        Propcrty Inventory
                                                                                                    In ventoryy Processing Syste
                                                                                                    Inventor                     System m
       (PIPS), and to updatc           to reflec
                          update PIPS to   reflectt agency policy for capitalization and depreciation thresholds.  threshold
                                                                                                                   thresh oldss.. Once
       validated,
       validated. PIPS
                   PI.PS will be the official sys
                                                systemtem of record for propert         info
                                                                             propertyy in forrmation.
                                                                                              illation
                                                                                              mation . In addition. BBG   BB G upd ate
                                                                                                                                     atedd
       property. plant,
       property,  plant., and equipment policies and procedure
                  plant                                     proccdures,
                                                            proccdures   s,, and train  ed sstaff
                                                                                  trained    taff to ensure cons
                                                                                                               consistent
                                                                                                               co nsiiste nt appl
                                                                                                                      stent       ication
                                                                                                                             application
       of the se policies and procedurcs. Our efforts re
          these                                                ress ultcd in adjustments to propelty roperty,, plant.
                                                                                                   propel1y,
                                                                                                   propel1y,   plant and equipment
       values.

       The o ther iss ssue
                        ue is related to the Agency Agency's   ' s reconciliation of se lect accounts pay
                                                               's                                                           ab le transaction
                                                                                                                       payable      transactionsss.. BBG
       began us ing the U.S.    .S. State Dep        a l1ment
                                                       ltment sys
                                               Depaltment         syste
                                                                  systemtemm foforr select
                                                                                      se lect papayments
                                                                                                paYlllents
                                                                                                payy ments when technological
                                                                                                                           technologica
                                                                                                                           tec hnologicall limitati
                                                                                                                                                limitatiooons
                                                                                                                                                           ns
       prevented emp      loyees at overseas loc
                     employees                        location
                                                          at ion    f rom
                                                             ionss from       directlyy logging
                                                                      rol11 directl        lo    ingg into the BBG fi nancial
                                                                                              gg in
                                                                                           loggg                                   anciall system.
                                                                                                                                 nancia         teill . The
                                                                                                                                            system
                                                                                                                                            sys tem
       BBG ha hass experienced ongo   o ngoing      ssues
                                                  iss
                                             ing issue                         tran saction s and,
                                                       uess with these transaction
                                                  issues                       transactions       and. "vhile
                                                                                                            'vvhile
                                                                                                            while the ovcrseas
                                                                                                                           overseas pa     ymentss made
                                                                                                                                         payments
                                                                                                                                         payment
       throughh the State account for 3.81
       throug                                 3.81
                                               .8 1% of all BBG pa            yment tran
                                                                           paYlllent
                                                                           payment             actions
                                                                                        transsac
                                                                                              sac  tions and repre        sent o nly 0.33%
                                                                                                                  represent             0.33 % (less th    an
                                                                                                                                                        than
       1I%) of the total ddollars
                             o ll a rs paid by
                             oll              by the Agency, the BBG take            takess this      is s ue seriou
                                                                                              thi s issue              s ly. In the coming nlOnths,
                                                                                                               seriously.                           nlOllti1s,
       the BBC
            BBG will review
                         revievv the     current proces
                                    the current     process
                                                    proce   sss to determine whcther whether we can leverage our web-ba            web-based sed financial
                                                                                                                                                  fi nancial
       syste
       sys   m [to0 allow direct po
         ystem
           tem                       posting    intoo BBG'
                                        s ting int     BBG' s financial syste    system,     wh ich would
                                                                                        m, which         wou Id give LIS  us greatcr
                                                                                                                              g re a tcr control over the
                                                                                                                                reatcr
       timeliness
       timeline  ss and accuracy of the data     data.. In addition, the BBG identified a sys
                                                 data.                                                           sy stem weakness that allowed    ll owed a
       payment transaction ttoo be proces  processed
                                                   sed on two separatescparate Tre      asuryy sc
                                                                                   Treasur
                                                                                   Treasury           hedulesss... Thi
                                                                                                  schedules
                                                                                                      hedule         Thiss iso   lated
                                                                                                                                   ted sys
                                                                                                                             solated
                                                                                                                             sola           tem ano
                                                                                                                                         system         maly
                                                                                                                                                  anomaly
       created the appearance of an out balance condition for acco                           unts pa
                                                                                      accounts      payable.              sys tem
                                                                                                         ya ble . The syste       m weakness
                                                                                                                                      weaknes s is being
       corrected through a combination    ination off ssoftwar
                                  co mbination
                                  com
                                  comb  bination           oftware
                                                           oftwa   ree changes a nd staff training   trainin g for these type       pess of tran
                                                                                                                                  y pe            sactions..
                                                                                                                                             transactions.
                                                                                                                                             transactions
       Finally,
       Finall y, 88G
                  BBG will review
                              revi ew the decentrali
                                               decentralized  zedd inv
                                                              ze          o icin
                                                                            icingg pro
                                                                     invoicin       process
                                                                                         cess to determine whcther    whether we can leverage leverage our
       wcb-based
       wcb-ba
       web-based
       web-ba        financi al sys
                sed financial         tem to improve processing efficie
                                  system                                      effficiencies
                                                                                        ncies and timeline
                                                                                 ficiencies             timeliness  ss of payment
                                                                                                                           payments.    s.




                                                                                7
330 INDEPEND EN CE AVENUE, SW
    INDEPENDENCE           SW              ROOM 3360           COHEN BUILDING              WASHINGTON, DC
                                                                                                       DC 20237               (202) 203-4545
                                                                                                                                    203·4545       FAX (202) 203-4568
                                                                                                                                                             2034568
                                                                                              APPENDIX


Thank you for the opportunity to comment
                                      cOl11ment on the audit report and for working cooperatively with LlS
throughout the audit process. The BBG is committed to continuous
                                                          continuoLls improvement of our           controls ,
                                                                                     oLir internal controls,
processes, and the qual ity of our financial reporting.
                   quality

Sincerely,



 aryjean Buhler
 aryjcan
Chief Financial Officer




                                                    8
